No. 20-8341

 

 

IN THE
SUPREME COURT OF THE UNITED STATES

JONATHAN HUEY LAWRENCE, PETITIONER,
v

STATE OF FLORIDA, RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT

CERTIFICATE OF SERVICE

I, Carolyn Snurkowski, a member of the Bar of this Court, hereby certify that a
copy of the Respondent’s Brief in Opposition was furnished by United States mail and
by email to Barbara J. Busharis, Assistant Public Defender, Second Judicial Circuit
of Florida, 301 South Monroe Street, Suite 401, Tallahassee, FL 32301; phone:
850-606-1000; email: barbara.busharis@flpd2.com on this 16th day of July, 2021.

uM 0

Carolyn M. Snurkowski

Associate Deputy Attorney General
Counsel of Record

OFFICE OF THE ATTORNEY GENERAL
CAPITAL APPEALS

THE CAPITOL, PL-01

TALLAHASSEE, FL 32399-1050

(850) 414-3300

COUNSEL FOR RESPONDENT
